•X

//

l'--

n '

No.

r.

V

lL,
Supreme Court, U S
filed

AUG 0 h 2021
OFFICE OF THE r.i PDi,

IN THE
SUPREME COURT OF THE UNITED STATES

STEVEN E. WALKER,
Petitioner
vs.
UNITED STATES OF AMERICA, and All Agents,
Elected Officials, and Actors Thereof; and
THE STATE OF CALIFORNIA, and AH Agents,
Elected Officials, and Actors Thereof,
Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
For the Ninth Circuit

PETITION FOR WRIT OF CERTIORARI

Steven E. Walker
6503 Roxy Lane
San Diego, California 92115
619-376-8157
waverider.ca69@yahoo.com
In Pro Se

ii

QUESTIONS PRESENTED
In District of Columbia v. Heller, this Court acknowledged that the Second
Amendment protects a pre-existing fundamental right to armed self-defense which is
exercised individually and belongs to every American. Id. 128 S.Ct. U.S. 2783, 2791
& 2799 (2008). This Court also mentioned government could administer regulations
which exclude any individual, they presume as unsatisfactory, from exercising this
fundamental right. Id. @ 2817 & n 26. The Second Amendment however explicitly
commands that the right of the People to keep and bear arms, shall not be infringed.
Would the Supremacy Clause apply to the Second Amendment? If it does, then
wouldn’t the Second Amendment’s command be supreme law; and any law which
infringes upon this essential right be repugnant to the Constitution and void where,
by implication, that prohibition contravenes the exercise of this irrefutable right?
The following may be important questions of constitutional law which have
not been, but should be, settled by this Court:
1)

Does the operative clause’s command that the right of the People to

keep and bear arms, shall not be infringed, permit government to infringe, invade,
overstep, or prohibit the right to any of the People, under any reason or pretense
whatsoever, from keeping and bearing firearms for self-defense?
2)

Whether, under Article VI, Clause 2, of the United States Constitution,

the Second Amendment to the Constitution is supreme law; and whether any law
infringing upon the right of any of the People who are free and law-abiding to keep
and bear firearms for their self-defense is repugnant to the Constitution, and void?

iii

PARTIES TO THE PROCEEDING
Petitioner is Steven Walker, a free law-abiding, responsible citizen who is
acting in Pro se.
Respondents are the United States of America, and all agents, actors and
elected officials thereof; and the State of California, and all agents, actors and
elected officials thereof.
RELATED CASES
This Case arises from the following lower court proceedings:
Steven Walker vs. United States of America, et al., No 20-55654 (9th Cir)
(Memorandum affirming district court summary dismissal, issued May 25, 2021).
Steven Walker vs. United States of America, The State of California, And all
actors, agents and elected officials thereof. No. 20-cv-31-DMS (AGS) (Order granting
plaintiffs motion to proceed in forma pauperis and summarily dismissing complaint
without prejudice for failure to state a claim upon which relief can be granted
pursuant to 28 U.S.C. §1915(e)(2)(B)(ii), issued March 4, 2020.)
There are no other proceedings in the state or federal trial or appellate courts,
or in this Court, directly related to this case within the meaning of this Court’s Rule
14.1(b)(iii).

iv

TABLE OF CONTENTS
PETITION FOR WRIT OF CERTIORARI

1

OPINIONS BELOW.

3

JURISDICTION.

3

CONSTITUTIONAL AND STATUTORY PROVISIONS

3

STATEMENT OF THE CASE ......................................

4

A.

Factual Background

4

B.

Procedural History..

8

REASONS FOR GRANTING THE WRIT
I.

II.

III.

10

This Court Should Resolve The Question Of Whether The Operative Clause’s
Command, “The Right Of The People To Keep And Bear Arms, Shall Not Be
Infringed,” Permits Government To Infringe, Invade, Overstep, Or Prohibit The
Right To Any Of The People, For Any Reason Or Pretense Whatsoever, From
11
Keeping And Bearing Firearms For Self-Defense
A.

“Shall Not Be Infringed” Means What It Says And Says What It
12
Means

1.

. Government Cannot Permanently Prohibit Whomever They Want From
Exercising Their Second Amendment Protections
18

2.

Government Can Only Act in Accord With The Second Amendment

21

3.

Permanent Prohibitions of Constitutional Rights And Protections Do
Not Find Support In Any Other Constitutional Amendment..............

25

This Court Should Resolve The Question Of Whether, Under Article VI, Clause 2,
Of The United States Constitution, The Second Amendment To The Constitution
Is Supreme Law And, Whether, Any Law Contravening The Right Of Any Free
Law-abiding, Responsible Citizen To Keep And Bear Arms For Self-Defense Is
Repugnant To The Constitution, And Void
27
A.

Government’s Interest In Protecting Society Cannot Be Elevated Above The
Individual’s Second Amendment Interest In Armed Self-Defense
30

1.

Grave and Immediate Danger, or Imminent Lawlessness

The Questions Presented Are Exceptionally Important

CONCLUSION

32

39
40

vii

27, 29

U.S. Const, amend. IV.

37

U.S. Const, amend. VIII
U.S. Const, amend. IX

4, 5, 16, 29

U.S. Const, amend. X,

29

U.S. Const, amend. XIII

27

U.S. Const, amend. XIV.

4, 6, 20, 33

California Constitution

Cal. Const, art. I, §1.............................

4

Cal. Const, art. II, §2(b)........................

6

Cal. Const, art. XX, §3..........................

7

Federal Statutes
18 U.S.C. §922.....................................

4, 5, 16, 28, 33

18 U.S.C. §922(g).................................

8

State Statutes
California Penal Code §198.5....................

4

California Penal Code §3000, subd. (b)(1)

6

California Penal Code §29800..................

4, 16, 28, 33

California Penal Code §29855..................

4

OTHER AUTHORITIES
Criminal Victimization 2018, By Rachel E. Morgan, and Barbara A. Oudekerk
U.S. Department of Justice, September 2019........................................................

5

Debra Bone, The Heller Promise vs. The Heller Reality: Will Statutes
Prohibiting The Possession of Firearms by Ex-felons Be Upheld After
Britt v. State?, 100 J. Crim. L. & Criminology 1633 (2010).................

35-37

Gary Kleck, Marc Gertz, Armed Resistance to Crime: The Prevalence
And Nature of Self-Defense With a Gun,
86 J. Crim. L. & Criminology 150 (1995-1996)......................................

5

Robert E. Shalhope, The Ideological Origins of the Second Amendment
69 J. Am. Hist. 599 (1982)..........................................................................

18, 29

Stuart R. Hays, The Right to Bear Arms, A Study in Judicial Misinterpretation,
2 Wm & Mary L. Rev. 381, 405 (1960),....................................................................
4 William Blackstone Commentaries, Ch.l Public Wrongs **9-16 (1825)

1
37-39

viii

5 Coke 118

25

Federal Rules of Civil Procedure, Rule 8

7

Supreme Court Rule 13...........................

3

1

PETITION FOR WRIT OF CERTIORARI
Historically: (1) society has recognized that People have the right to preserve
their own species. This is the right to repeal invasion and to resist enemy activity;
(2) society has recognized the right of People to protect themselves against their
internal enemies and to preserve their own life through the right of personal selfdefense; and (3) society has recognized the right of People to revolt against the
oppression of their political leaders. These rights, “the sword of the Magna Carta,
has been preserved throughout the Anglo-American history of the last five hundred
years. When society is able to guarantee to each member that they will have no fear
of oppression, aggression, or bodily harm, then no longer will these rights be of any
real legal meaning. When the reason ceases the rule should cease. Has the modern
society met this responsibility?” It would seem that as long as there is danger to
individual life, then that society has not eliminated the right of self-defense. “As long
as these rights live, then also should coexist the right to bear arms, this is exoteric.
Can we deny the right of self-defense and remove the ability therefor?” See Stuart R.
Hays, The Right to Bear Arms, A Study in Judicial Misinterpretation, 2 Wm & Mary
L. Rev. 381, 405 (1960).
The text, history, purpose and command of the Second Amendment does not
support, nor authorize, the government to establish laws, rules, or policies which
infringe upon, prohibit, or deny any American Citizen the right, or ability to keep
and bear arms for self-defense, regardless of their previous conditions of servitude,
or prior conviction of a crime. The Amendment is complete when stating that the
right of the People to keep and bear arms “shall not be infringed.” U.S. Const.
Amend. II. This language does not include any exceptions or limitations upon the

2

People, only upon the government. There are no hidden or technical meanings
granting government power to establish categories of People who may or may not be
worthy of exercising the right. “Shall not be infringed” means what it says and says
what it means. There is no middle ground. It is unambiguously clear that the right
to keep and bear arms for all Americans cannot be, must not be, and may not be
violated, overstepped, invaded, limited or prohibited.
Under Heller's rationale, a responsible law-abiding citizen’s individual
interests in possessing a firearm for self-defense is elevated above all other interests.
including the governments.1 Yet, what are the principles which determine who a
law-abiding and responsible citizen is—and how long must that person abide by and
be obedient to the law as required by constitutional requirements—in order to
satisfy the government’s arbitrary position on Second Amendment protections? Is it
a lifetime of law-abiding behavior, or a select number of years? Also, where in the
Constitution are there time or duration yardsticks defining when or for how long a
citizen loses or regains their rights which are constitutionally protected? Does the
Constitution even allow for rights to be denied or disparaged? It is clear that the
language of the Second Amendment does not categorize who or what type of “People”
are not allowed to keep and bear arms? It does however restrict the government from
doing so. Heller held that the individual right to possess arms for self-defense
belongs to all Americans.2 Thus, “every” American enjoys this inalienable right.

i

The term “law-abiding” means “abiding by or obedient to the law.” See
https://www.merriam-webster.com/disctionary/law-abiding.
2

Declaring that the right belongs to all Americans, this Court meant “every”
American. As the term “all” means “every member” or the “whole amount” of. See e.g.
https://www.merriam-webster.com/dictionary/all.

3

Furthermore, this Court has yet to resolve what the plain and unambiguous
command “shall not be infringed” actually means and ensures. Until this matter is
resolved government will continue to seek ways to impose tyrannical and oppressive
laws upon the Second Amendment, and the rights of the People under any pretense,
they quixotically assume necessary. The time has come to resolve these highly
important controversial questions. Certiorari should be granted.
OPINIONS BELOW
The court of appeals order affirming the district court’s summary dismissal is not
reported in the Federal Reporter but is reproduced in Appendix A. The District Court’s
order summarily dismissing the complaint, and granting in forma pauperis status, is not
reported in the Federal Supplement but is reproduced in Appendix B.
JURISDICTION
The date on which the United States Court of Appeals for the Ninth Circuit
decided my case was May 25, 2021. No Petition for Rehearing was filed in this case.
This Petition is timely under this Court’s Rule 13 and therefore, this Court has
jurisdiction under 28 U.S.C. §1254(1) and Article III of the United States
Constitution.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Article VI, of the United States Constitution; The First, Second, Fourth, Ninth
Thirteenth and Fourteenth Amendments to the United States Constitution, relevant
portions of the California Constitution, California Penal Code, and the United States
Codes.

4

STATEMENT OF THE CASE
A.

Factual Background
California and the United States governments, have created and are enforcing

laws which categorically prohibit people, who they assume to be unworthy of the
Second Amendment right, from keeping, bearing, and procuring arms for their selfdefense. See Calif. Penal Code §29800; also see 18 U.S.C. §922. Basically, these types
of laws make it a crime for a free, law-abiding citizen to defend themselves, and
these prohibitions are permanent to all unless very limited exemptions are satisfied.
See Calif. Penal Code §29855 [exemption for law enforcement only].3 Yet, California
also allows its citizens to stand their ground and defend themselves, family, home,
and community. See Calif. Penal Code §198.5. More to the point, in California “[a]ll
people are by nature free and independent and have inalienable rights. Among these
are . . . defending life and liberty, . . . protecting property, and pursuing and
obtaining safety. . . .” See Calif. Const. Art I, §1. [Emphasis added in Italics]. But,
California restricts the ability to do so, for anyone with a historical conviction. See
Calif. Penal Code §§29800 et seq. However, these inalienable rights are fundamental
rights protected under the Second, Ninth and Fourteenth Amendments, which
includes the fundamental right to keep and bear arms. Yet, the current firearm
prohibition laws imposed upon citizens who have an obsolete felony or misdemeanor
conviction—but who are free, independent, and leading a law-abiding responsible
life—eternally deny and disparage them from exercising their inalienable and

3
The law provides for exemptions for convicted law enforcement but not for convicted
Citizens. However, the Second Amendment protects all People, not just law enforcement.

5

fundamental rights to defend life and liberty, protect property, or pursue and obtain
safety. See cf. U.S. Const. Amend. IX. [“The enumeration in the Constitution, of
certain rights, shall not be construed to deny or disparage others retained by the
people”]. This is also true under the Federal restrictions. 18 U.S.C. §922. California
and the United States governments have therefore essentially destroyed the Second
Amendment rights of all free citizens under the disastrous pretext of controlling
violent crime (Gun violence).
Nonetheless, between the years 2015 and 2019 there were over 27 million
violent crimes committed in the United States, averaging roughly 5.5 million crimes
per year. In addition, approximately 13% of those 27 million crimes involved a
weapon, not necessarily a firearm. See “Criminal Victimization, 2018.” By Rachel E.
Morgan and Barbara A. Oudekerk, U.S. Department of Justice, September 2019 @ p.
4, https://www.bjs.gov/content/pub/pdficvl8.pdf. What these facts reveal is that gun
control laws created 27 million victims of crime, where as many as 400,000 or more
people use guns every year for self-defense or to save a life. See Gary Kleck, Marc
Gertz, Armed Resistance to Crime: The Prevalence and Nature of Self-Defense with a
Gun, 86 J. Crim. L. & Criminology 150, 180 (1995-1996).4 As such, firearm
prohibitions do nothing to stop violent crime. Just the opposite, they help to arm the
criminal minded while effectively eliminating the ability of free-minded citizens to

4
“Prohibitionist measures . . . are aimed at disarming criminals and non-criminals
alike. They would therefore discourage and presumably decrease the frequency of defensive
gun use among crime victims because even minimally effective gun bans would disarm at
least some non-criminals. The same would be true of laws which ban gun carrying. In sum,
measures that effectively reduce gun availability among the non-criminal majority also
would reduce defensive gun use that otherwise would have saved lives, prevented injuries,
thwarted rape attempts, driven off burglars, and helped victims retain their property.” Ibid.

6

protect themselves from the non-caring criminal element. See e.g. Miller et al., v.
Bonta, Case No. 19-cv-1537 BEN(LB) DECISION atpp. 2-3, 8-9, 13-15, 20-22, 30-33,
43-80, & 88-92 (U.S. Dist.Crt. S.D. Cal. 2021)[hereafter “Miller v. Bonta”]. These
prohibitions, however, do not find any sustenance in the text, history, purpose or
command of the Second Amendment, nor the Fourteenth Amendment.
The Second Amendment, being an Amendment to the Constitution is, in fact,
supreme law, under Article VI, Clause 2, of the United States Constitution, when it
comes to individual protections of the right to keep and bear arms. Therefore, any
law which infringes, invades, limits or prohibits these protections to any Citizen is
contrary to this supreme constitutional law, and void.
In 1990, thirty-one (31) years ago, Petitioner was convicted, sentenced, and
punished for committing a non-injury attempted murder, with use of a firearm (the
handgun discharged in the air, pointing away from the victim). Petitioner served his
punishment, reformed himself, was released upon parole in 2012, and was
discharged from his conviction/punishment in 2015, because, among other things, he
no longer posed an unreasonable risk of danger to the community.5 See Appx C, @ pp.
2-4. Having been discharged, Petitioner is no longer disqualified from voting and has
voted in elections since 2015. See Calif. Const. Art II, §2(b). Petitioner is qualified
for jury service, and has been called to serve jury duty twice. Petitioner has
remained clean and sober for over 31 years, and has steady employment. As a “public

5
See California Penal Code § 3000, subd. (b)(1) [discharge provision]; e.g. In re
Dannenberg, 23 Cal. Rptr. 3d 417, 428-431 (2005)[Inmate is to be released from prison
where it is determined that they no longer pose an unreasonable risk of danger to public
safety.]

7

employee” for the State of California he is required to swear an oath to support and
defend the Constitutions of the United States and State of California. See Calif.
Const. Art XX, §3. Petitioner is a first responder to all types of roadway incidents; is
trained in First Aid, Hazardous Material containment and identification; and on
occasion works hand-in-hand with law enforcement. Petitioner has a college degree
in paralegal studies.

He

also has educational certification in Emergency

Management from FEMA. Petitioner rents a home; helps take care of his elderly
mother; owns property; can acquire property; and can run for public office. Petitioner
however is arbitrarily barred from the fundamental right to protect himself, his
family, home and community because the ability to do so is prohibited, based on
arbitrary government assumptions. Petitioner also contributes to the economy; pays
taxes, and is involved in the community. Petitioner has not committed any type of
misdemeanor, nor felony offense, since April 27, 1990. These facts conclusively set
forth that Petitioner is no longer a dangerous felon.6 Petitioner enjoys every single
civic and constitutional right which existed prior to his conviction, except for the one
which “shall not be infringed.” See U.S. Const. 2nd Amend; Appx C, pp. 2-5. Thus,
much like the Black Codes of the 1800’s which banned freed Blacks from keeping and
bearing firearms, the current felon dispossession codes have left Petitioner, who is a
freeman, “without the means of self-defense.” E.g. McDonald, Supra, 130 S. Ct. @
3043 & 3075-3084 [Cone. Opn. by THOMAS„J.]

6
Accordingly, “ex-felons” are part of the “People” protected by the Second Amendment,
due to the fact that they are members of the national community. See Part I-A, infra, @ pp
18-28 Therefore, those like Petitioner who are free, law-abiding and responsible Americans
“shall not be” deprived of the right to keep and bear firearms for self-defense, due to an
obsolete conviction. Accordingly, the herein facts, taken as true, are enough to establish a plausible
claim for relief. See Fed. R. Civ. P. Rule 8; see also, Part II-A, infra, @ pp. 30-37.

8

It can be credibly concluded that Petitioner is a free law-abiding and
responsible citizen.7 Accordingly, based on these indisputable facts and on the
history and text of the Second Amendment, as well as this Court’s basis in Heller, a
reasonable person would agree that Petitioner cannot be disqualified from the
protections and rights afforded under the Second Amendment.
B.

Procedural History
Petitioner brought suit to challenge the continued arbitrary prohibition upon

his constitutionally protected right to armed self-defense under the Second
Amendment. He stated that he is no longer a felon but a free law-abiding citizen and
under the plain meaning of the Second Amendment, and this Court’s reasoning in
Heller, he is no longer precluded from exercising his individual, pre-existing
fundamental right to armed self-defense. Appx. C, pp. 1-10. Both the district court
and Ninth Circuit “inconceivably]” held that Petitioner’s claims were foreclosed by
the Ninth Circuit’s flawed decision in Vongxay, and this Court’s dictum in Heller. See
Appx. A @ p. 2; and Appx B @ pp. 3-4; but see Heller, Supra, 128 S.Ct. @ 2816 n. 25.
Unlike this case, Vongxay concerned a challenge stemming from a new
conviction of a dangerous felon in possession of a firearm under 18 U.S.C. §922(g).
The facts reveal that Vongxay was not a law-abiding, responsible citizen, but a gang
member who participated in violent gang activity, where he was repeatedly engaged

7
Yet, petitioner was not allowed to prove his claims where the lower courts summarily
dismissed them. Appendix A & B. Also, United States v. Vongxay, 594 F.3d 1111 (9th
Cir.2010), as applied to him is flawed where it was based upon the assumption that all
felons are “incapable” of virtuous citizenry. Id. 594 F.3d @ 1118. However, laws which
establish “irrefutable assumptions,” or “irrebuttable presumptions” violate the Due Process
Clauses of the Fifth and Fourteenth Amendments. See e.g. Vlandis v. Kline, 412 U.S. 441,
446-447 (1973).

9

in “constant shootings...armed with guns” and caused other “disturbances.” Id. 594
F.3d @ 1113-1115. Thus, the defendant in Vongxay was not protected by the Second
Amendment because (1) he continued to act in a severely dangerous, lawless
manner, and (2) he continued to use firearms for unlawful confrontations. Cf. Heller,
Supra, 128 S. Ct. @ 2799 [Second Amendment does not protect the use of firearms
for any sort of confrontation]. The court in Vongxay also recognized that this type of
felon was “categorically different” from individuals who have a fundamental right to
keep and bear arms, which “limits the protected class to law-abiding, responsible
citizens.” Id. 594 F.3d @ 1115 & n.l; and see Part II-infra. As set forth above,
Petitioner is categorically different from the defendant in Vongxay, because he is a
free law-abiding, responsible citizen, and has been for a number of years. Appx. C
pp. 1-4. And yet, the government continues to flout the Second Amendment, and this
Court’s basis in Heller, by creating and enforcing laws which do nothing more than
erode the very constitutional amendment they are bound by oath and affirmation to
support. See U.S. Const. Article VI, cl. 38 Accordingly, government officials have no
constitutional power to infringe upon the rights of any of the people.

U.S. Const. Article VI, cl. 3 states: “The Senators and Representatives before
mentioned, and the Members of the several State Legislatures, and all executive and judicial
Officers, both of the United States and of the several States, shall be bound by Oath or
Affirmation, to support this Constitution...” [Emphasis added in Italics]. It is clear that this
is a constitutional command which cannot be transgressed. Therefore, enacting and
enforcing laws, rules or policies which contravene, flout or derogate rights protected by the
Constitution can be construed as violating the aforementioned oath and affirmation. See e.g.
Marbury v. Madison, 5 U.S. 137, 179 (1803). [“This oath certainly applies in an especial
manner, to their conduct in their official character. How immoral to impose it on them, if
they were to be used as the instruments, and the knowing instruments, for violating what
they swear to support”]. Violating a constitutional command to create or enforce a regulatory
prohibition, does not make that prohibition presumptively lawful, nor its enforcement valid.
8

10

REASONS FOR GRANTING THE PETITION
This Court has made it clear in both Heller and McDonald, that the “central
component” of the Second Amendment protects the right of the individual to armed
self-defense. This right is not a second class right but a fundamental right for all
law-abiding, responsible citizens.9 This right is also not subject to government
experimentation or desecration, which does nothing more than allow that right to be
watered down and subjected to the notions, artifices or assumptions of policy­
makers.
Prohibitions on firearm ownership and possession impermissibly curtail
fundamental, individual self-defense rights, by arbitrarily assuming that a person
who previously committed a crime, who is free, cannot pass governmental muster as
a law-abiding citizen. The Second Amendment however does not allow government
to classify the type or kind of People who they presume might be unfit or not
permitted to keep and bear arms. Further, there is not any hidden or technical
meanings within the text or history of the Amendment granting government an
unseen power to experimentally infringe upon the right of the People, or to restrict
the type of arms they can or cannot keep and bear. Instead, the Second Amendment

9
Petitioner understands the need to protect society from those who wish it harm, and
agrees that those individuals who continue in crime or who are under restraint of liberty
may be dangerous and have not demonstrated law-abiding, responsible behavior. Yet,
Second Amendment rights are not earned or doled out at the whims and wishes of
government officials. The Second Amendment codified a “pre-existing” right. Heller, 128 S.
Ct. @ 2797. Therefore, being that it is not dependent upon the Constitution for its existence,
then it “shall not be” contingent upon government for its authorization. See U.S. Const.
Amend II; also see e.g. Reid v. Covert, 354 U.S. 1, 5-6 (1957.)

11

is crystal clear in pronouncing that the “right of the People to keep and bear arms
shall not be infringed.” U.S. Const. Amend. II. [Emphasis added in Underline]
Certiorari should be granted. No longer should a free, law-abiding, responsible
citizen, regardless of a checkered-past or static-conviction, who is not immediately
engaged in criminal or dangerous activity or under restraint of liberty for
punishment of crime, be subjected to any form of government infringement of their
natural, pre-existing, inalienable right to armed self-defense.
I.

This Court Should Resolve The Question Of Whether The Operative
Clause’s Command, “The Right Of The People To Keep And Bear Arms,
Shall Not Be Infringed,” Permits Government To Infringe, Invade,
Overstep, Limit, Restrict, Or Prohibit The Right To Any Of The People,
For Any Reason Or Pretense Whatsoever, From Keeping And Bearing
Firearms For Self-Defense
The text and history of the Second Amendment make clear that it confers no

power upon either the State or Federal government10 to restrict the individual right
of armed self-defense to a chosen few—who they deem as unworthy of its
protections.11 Both Heller and McDonald, make clear that the Second Amendment
right to armed self-defense is a pre-existing individual right, which belongs to all
Americans. The Amendment does not allow for the enforcement of any restrictions,
limitations, or prohibitions upon the People. Nonetheless, since 1934 to the present,
government has embarked upon a road of constitutional evisceration—the uncalled-

Since the issues herein concern both the governments of the United States and State
of California, they both will be referenced as “Government” or “government.”
10

This raises a critical question. Since these individuals might be disqualified from a
right that is specifically enumerated in the Constitution, then the right to armed selfdefense can be construed under the Ninth Amendment as “other rights” retained by the
People which “shall not be” denied or disparaged. See e.g. Griswold v. Connecticut, 381 U.S.
479, 488-94 (1965)[Conc. Opn by GOLDBERG, J.]
li

12

for destruction of constitutionally protected rights; especially Second Amendment
rights, via the ruse of a failed experiment, known as “gun control.” Ante @ pp. 5-6;
Miller v. Bonta, supra, 19-cvl537 BEN@ pp. 2-3, 8-9, 20-22, 30-33, 43-80 & 88-92.
A.

“Shall Not Be Infringed” Means What It Says And Says What It Means.
It is unquestionable that the Constitution is the Supreme Law of this Country,

and all laws, including state and federal laws, must be made in pursuance thereof.
See Article VI, cl. 2. The Bill of Rights and the Amendments contained therein, are
integral components within the Constitution. The very purpose of the Bill of Rights
was to further the purpose of limiting government involvement in the daily affairs
and lives of the individual. The Bill of Rights is not a list of suggestions or guidelines
for social balancing. Instead, the Bill of Rights prevents the tyranny of the majority
from taking away the rights of a minority and the Second Amendment protects “any
law-abiding citizen’s right to choose to be armed to defend himself, his family, and
his home.” See Miller v. Bonta, supra, @ pp. 90-92. Further, this Court in West
Virginia State Board of Education, et aL, v. Barnette, et al. 319 U.S. 624, 638 (1943),
clarified that:
“The very purpose of a Bill of Rights was to
withdraw certain subjects from the vicissitudes of
political controversy, to place them beyond the reach of
majorities and officials and to establish them as legal
principles to be applied by the courts. One's right to life,
liberty, and property, to free speech, a free press, freedom
of worship and assembly, and other fundamental rights
may not be submitted to vote; they depend on the outcome
of no elections.” [Emphasis added. In Italics].
Fundamental Second Amendment rights therefore, “shall not be” subjected to
the controversies or vagaries of politicians, they must not be subjected to a vote of
any kind, and they cannot be subjected to elections or limitations. Instead, those

13

rights are to be placed beyond the reach of majorities and officials. Basically, under
Article VI, cl. 2, the Second Amendment to the Constitution is supreme law, and all
laws which concern the right of the People to keep and bear arms must be made in
pursuance to its Purpose and Command. Therefore, under the Amendment’s
“limiting principles,” e.g. 319 U.S. @ 639-640, this Court’s dictum concerning
“presumptively lawful” prohibitions, alluded to in Heller. 128 S. Ct. @ 2816-2817 & n.
26, are not constitutionally permissible.12
The Second Amendment states in pertinent part to this issue:

, being

necessary to the security of a free State, the right of the People to keep and bear
arms, shall not be infringed.” See U.S. Const. Amend. II [Emphasis added in Italics.]
It is unambiguously clear that this language is a direct command which restricts the
powers of government from prohibiting the right to any of the “People.” Cf.
Cruikshank, Supra, 92 U.S. @ 549-50. This language does not merely limit
government involvement, but completely prohibits it from encroaching upon the
rights of the People to keep and bear arms, which is necessary to their security.
McDonald, Supra, 130 S. Ct. @ 3048 (Self-defense is the “central component” of the
right itself). There is not any exception built into this language, nor is there any
exclusion which can be surmised from it, except for one—it excludes the government
from invading upon the right of any Citizen. There is not any disqualification criteria

Basically, this Court’s statement concerning presumptively lawful regulatory
prohibitions, without conducting a full analysis of the Second Amendment is unclear. As
such, it is obiter dictum. It was an “oh by the way” statement that holds no authoritative
value, a mere passing reference that did not receive a full consideration by the Court. E.g.
U.S. v. Crawley, 837 F.2d 291, 292-293 (7th Cir. 1988). Therefore, it is “inconceivable that
[any court] would rest [an] interpretation of the basic meaning of any guarantee of the Bill
of Rights upon such ... dictum in a case where the point was not at issue and was not
argued.” Heller, Supra, 128 S.Ct. @ 2816 n. 25.
12

14

mentioned concerning who the People are that do not have the right to keep and
bear arms, where it endorses the right upon all of the People.
In construing this provision, it is clear that it “was written to be understood by
the voters; its words and phrases were used in their normal and ordinary as
distinguished from technical meaning; where the intention is clear there is no room
for construction and no excuse for interpolation or addition.” United States v.
Sprauge, 282 U.S. 716, 731-732 (1931); Heller, 128 S. Ct. @ 2788. [Emphasis added
in Italics]. Here, the intention is very clear: “the right of the People...shall not be
infringed.” U.S. Const. Amend. II [Emphasis added]. There are not any secret or
technical meanings hidden within this language indicating that the right of some of
the People may be infringed, when that person does not fit into a government
established group or category. Id. 128 S. Ct. @2788. As a matter of reality, it
specifically prohibits the government from establishing any type of infringements
upon any of the People, of any kind, including the type of “arms” to be kept or born.
There is nothing in this text which makes way for doubts as to whether prohibitions
of the right are presumptively lawful or not. Due to the fact that it specifically
excludes any prohibition of the right. Therefore, legislative created presumptions,
prohibiting the right to any of the People, cannot transgress this constitutional
restriction. As stated by this Court:
“[W]here the conduct or fact, the existence of which is
made the basis of the statutory presumption, itself falls
within the scope of a provision of the Federal
Constitution, a further question arises. It is apparent that
a constitutional prohibition cannot be transgressed
indirectly by the creation of a statutory presumption any
more than it can be violated by direct enactment. The
power to create presumptions is not a means of escape from
constitutional restrictions.”

15

See e.g. Heiner v. Donnan, 285 U.S. 312, 329 (1932); Baily v Alabama, 219 U.S. 219,
239 (1911). [Emphasis added in Italics.] And, while it is this Court’s job to faithfully
apply the Constitution as written, e.g. Marbury v. Madison, 5 U.S. 137, 176-179
(1803), it is never this Court’s job “to rewrite [Constitutional text] under the banner
of speculation about what [the Framers] might have done had [they] faced a question
that. . .[they] never faced.” E.g. Hanson u. Santander Consumer USA, Inc. 137 S. Ct.
1718, 1725; e.g. Magwood v. Patterson, 561 U.S. 320, 334 (2010) ("We cannot replace
the actual text with speculation as to Congress' intent"). [Bracketed words added.]
More to the point, a cardinal rule when construing Constitutional text, much
like statutory text, is “’to give effect, if possible, to every clause and word of a statute
. . . . ‘a statute ought, upon the whole, to be so construed that, if it can be prevented,
no clause, sentence, or word shall be superfluous, void, or insignificant.’” This Court
is therefore, “’reluctan[t] to treat statutory terms as surplusage’” in any setting.
Duncan v. Walker, 533 U.S. 167, 174 (2001) [Citations omitted]; Griswold, Supra,
381 U.S. @ 491[“In interpreting the Constitution, ‘real effect should be given to all
the words it uses.’”] (Cone. Opn. by GOLDBERG, J.).
This well-established rule applies when construing the language of the Second
Amendment. The creation of laws like the National Firearms Act of 1934, the
Federal Firearms Act of 1938, the Gun Control Act of 1968, 18 U.S.C. §922,
California Penal Code section 29800, and the Uniform Firearms Act, all work to
dismantle “the right of the people to keep and bear arms, shall not be infringed,”
purpose and command into surplusage and void rhetoric. U.S. Const. Amend. II; also
see Appx. C @ pp. 5-10. Basically, the constitutional restriction on government
becomes hollow, which makes the fundamental right meaningless. Laws of this

16

nature do not find any support in either the text or history of the Second
Amendment, nor in any other clause of the Constitution. Also see U.S. Const. Amend.
IX. The framers of the Constitution, and the Amendments therein, clearly intended
that government’s power to breach the individual’s right to keep and bear arms, be
itself restrained. This Court has “stated time and again that courts must presume
that a legislature says in a statute what it means and means in a statute what it
says...” Connecticut Nat. Bank v. Germain, 503 U.S. 249, 253-54 (1992) see also Reid
v. Covert, Supra, 354 U.S. @ n.7 [“This Court has constantly reiterated that the
language of the Constitution where clear and unambiguous must be given its plain
evident meaning.”]; and Gibbons v. Ogden, 22 U.S. (9 Wheat) 1, 188-189 (1824)[“As
men whose intentions require no concealment, generally employ the words which
most directly and aptly express the ideas they intend to convey, the enlightened
patriots who framed our constitution, and the people who adopted it, must be
understood to have employed words in their natural sense, and to have intended
what they have said”]. This applies more so to the Second Amendment than to the
statutes which would destroy the power of the Amendment.13
The plain meaning of “shall not be” is pretty clear. It means must not be,
cannot be, and may not be. There is no wiggle room where “statutory words are . .
. to be used in their ordinary and usual sense, and with the meaning commonly
attributed to them.” Caminatti v. United States, 242 U.S. 470, 485-86 (1917). This

13

The Second Amendment's “right of the people to keep and bear arms shall not be
infringed" language was clearly not intended to allow for extensive reasonable regulation.
“Rather, it was intended to prevent all laws and regulations that would result in the people
being deprived, abridged, restrained, narrowed, or restricted in the exercise of their
fundamental right to keep and bear arms.” See https://onsecondopinion.
blogspot.com/2009/02/meaning-of-shall-not-be-infringed.html. [Emphasis added].

17

Court’s sole function then is to enforce the Second Amendment “according to its
terms” and not that of the governments. Id. @ 485; and Footnote 8, ante. This Court
has explained many times, over many years that, “when the meaning of the statute's
terms is plain, our job is at an end. The people are entitled to rely on the law as
written, without fearing that courts might disregard its plain terms based on some
extratextual consideration.” Bostock v. Clayton County Georgia, 140 S.Ct. 1731, 1749
(2020).

This question should, therefore, be an easy one to answer. Government is not
free to impose its own policy choices on American citizens where Constitutional
rights are concerned. As Heller explains, the Second Amendment takes certain policy
choices and removes them beyond the realm of permissible state action. Id. 128 S.
Ct. @ 2822. The Second Amendment stands as a shield from government imposition
of that policy. To give full life to the core right of self-defense, every law-abiding
responsible individual citizen has a constitutionally protected right to keep and bear
firearms commonly owned and kept for lawful purposes. In early America and today.
the Second Amendment right of self-preservation permits a citizen to ‘“repel force by
force’ when ‘the intervention of society in his behalf, may be too late to prevent that
injury.”’ Then, as now, the Second Amendment “may be considered as the true
palladium of liberty.” Fortunately, no legislature has the constitutional authority to
dictate to any citizen that he or she “may not acquire a modern and popular gun for
self-defense.” See Miller v. Bonta, supra, @ pp. 92-93. [Citation Omitted from
original].
In short, allowing legislative bodies to infringe upon the right of an individual
or individuals who they speculate as unsavory but who do not pose as a grave and

18

immediate danger, permits government to disregard constitutional limitations. “The
government could quickly swallow the right if it had broad power to designate any
group as dangerous and thereby disqualify its members from having a gun.” See e.g.
Kanter, supra, 919 F.3d, @ 465 [dissenting opinion BARRETT J.] Historically, “[t]o
deny arms to some men while allowing them to others was an intolerable denial of
freedom.” See Robert E. Shalhope, The Ideological Origins of the Second Amendment
69 J. Am. Hist. 599, 602 (1982). In other words, the term “shall not be infringed” was
intended to prevent “those in authority [from] systematically disarming] the
populace.” Id. @ 610. That is exactly what gun prohibition laws do, they
systematically disarm the populace while risking their safety. Ante, pp.5-6 & n 4.
As such, “Shall not be infringed,” means what it says and says what it means.
Accordingly, government has no power to infringe upon, or prohibit Petitioner from
his pre-existing Second Amendment rights and protections to armed self-defense.
1.

Government Cannot Permanently Prohibit Whomever They
Want From Exercising Their Second Amendment Protections.

In Heller, this Court admitted it had conducted a limited analysis of the full
scope of the Second Amendment. Id. 128 S. Ct. @ 2816 [“...we do not undertake an
exhaustive historical analysis today of the full scope of the Second Amendment.”]
Yet, some type of review is needed in order to resolve the important questions raised
by Petitioner. Like: Does the Second Amendment allow government to infringe upon
the right of any of the People to keep and bear arms, or does the Amendment only
protect those People the government deems worthy? Does the history and text of the
Amendment allow government to disarm the People? Or, does it grant a very limited
power to defer, temporarily, the right to only those who pose a serious and
immediate danger to public safety? These questions need to be addressed.

19

This Court in Heller, stated that the Second Amendment is divided into two
parts. Id. 128 S.Ct. @ 2789. Those two parts are its Purpose and its Command. Logic
therefore, “demands that there be a link between the stated purpose and the
command.” Ibid. The Purpose of the Second Amendment is connective, yet separate.
Heller, 128 S. Ct. @ 2890 [Operative and prefatory clauses]. Both the “operative
clause,” and the “prefatory clause” state the purpose of the Amendment. Id @ 29012904. In a nut shell, the operative and prefatory clauses establish that the purpose of
the Second Amendment is to protect (1) the right to a well-regulated militia of armed
People, and (2) the individual right of the People to keep and bear arms—both “being
necessary to the security of a free State.” U.S. Const. Amend. II. Therefore, the
purpose of the Amendment is to fundamentally protect the People in order to secure
a state of freedom through the means of armed defense. Both individual freedom
and the freedom of this Country. As so eloquently stated by Judge Benitez: “The
Second Amendment is about America’s freedom: the freedom to protect oneself,
family, home, and homeland.” See Miller v. Bonta supra, @ pp. 91-92. Therefore, the
Command of the Second Amendment is that the Purpose, “shall not be infringed.”
U.S. Const. Amend. II. The relationship between the Purpose and the Command, is
that both are “necessary to the security of a free [People].” With this in mind, who
are the “People” protected by the Second Amendment from government
infringement? Are the People, all Citizens of the United States, or are they only a
collective body of those who are approved by legislative formation?
In Heller, this Court vetoed the collectivists approach and stated that the
Second Amendment confers upon the People an individual right, and “not ’collective’
rights, or rights that may be exercised only through participation in some corporate

20

body.” Id. @ 2790. This Court mentioned that the “term (the People) unambiguously
refers to all members of the political community, not an unspecified subset.” Id. @
2791. It can therefore be presumed that all people who are legally registered to vote
pay taxes, are employed, own property, serve on juries, or participate in the political
community fall within the protections of the Second Amendment. Yet, would that not
then isolate the constitutional protection to only those who participate in a corporate
(communal) body politic? A concept rejected in Heller. Ibid. Another aspect of the
“People” mentioned in Heller, was that “'the people* protected by the Fourth
Amendment, and by the First and Second Amendments . . . refers to a class of
persons who are part of a national community or who have otherwise developed
sufficient connection with this country to be considered part of that community." Id.
@ 2791, quoting United State v. Verdugo-Urguidez, 494 U.S. 259, 265 (1990). This
category broadens the scope of people covered by the Amendment to “[a] 11 persons
born or naturalized in the United States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State wherein they reside.” See U.S. Const.
Amend. XIV, §1.
The Second Amendment therefore endows upon all Citizens of the United
States, and in the State wherein they reside, the fundamental right to keep and bear
arms.

See Heller, 128 S. Ct. @ 2090-2091 [“...the Second Amendment right is

exercised individually and belongs to all Americans”.]

Basically, “all” means that

every American citizen, the whole national community, is protected by the Second
Amendment from legislative contravention of their rights to keep and bear arms for
self-defense. See e.g. https://www.merriam-webster.com/dictionary/all. Therefore, the

21

Second Amendment does not allow government to categorically pick and choose who
the People are, that it protects, i.e. the “right” of the People, shall not be infringed.
2.

Government Can Only Act In Accord With The Second
Amendment

Government in this Country is a creature of the Constitution. It’s “power and
authority have no other source. It can only act in accordance with all the limitations
imposed by the Constitution.” United State v. Verdugo-Urguidez, Supra, 494 U.S. @
270. Therefore, the rights and liberties which citizens of our country enjoy are not
protected by custom and tradition alone, “they have been jealously preserved from
the encroachments of Government by express provisions of our written
Constitution.”

Reid, Supra, 354 U.S. @ 6-7. But, how far can the government

encroach upon a constitutionally protected right that “shall not be infringed”? U.S.
Const. Amend. II.
This Court in Heller, when employing the historical meaning of the individual
right to keep and bears arms, recognized that the Second Amendment is “the true
palladium of liberty .... The right to self-defense is the first law of nature: in most
governments it has been the study of rulers to confine the right within the narrowest
limits possible. Wherever standing armies are kept up, and the right of the people to
keep and bear arms is, under any colour or pretext whatsoever, prohibited, liberty, if
not already annihilated, is on the brink of destruction.” Id. 128 S. ct. @ 2805.
[Emphasis added in Italics.] What this evocative recitation expounds upon is that
the Second Amendment, does not allow government to prohibit any citizen, under
any form or reason whatsoever, from the right to keep and bear arms for selfdefense. Basically, the “presumptively lawful prohibitions” stated in Heller, are not

22

lawful because they aid in the destruction of liberty by violating the Purpose and
Command of the Second Amendment.
Heller, further recognized that u[n]o clause in the constitution could by any rule
of construction be conceived to give to congress a power to disarm the people. Such a
flagitious attempt could only be made under some general pretense by a state
legislature. But if in any blind pursuit of inordinate power, either should attempt it,
this amendment may be appealed to as a restraint on bothId. @ 2806. [Emphasis
added]. Essentially, government has no constitutional power to disarm any of the
people under any act whatsoever. Basically, any “presumptively lawful prohibition,”
which “disarms” the people, is unlawful because they were made “in blind pursuit of
an inordinate” power, forbidden by the Second Amendment.
The most compelling case illustrating that government has no power to
contravene the Second Amendment was approved in Heller, as “perfectly
captur[ing]” the operative clause’s meaning. In Nunn v. State, 1 Ga. 243, 251
(1846), the Georgia Supreme Court construed the Second Amendment as protecting
the "natural right of self-defense" by holding that:
"The right of the whole people, old and young, men,
women and boys, and not militia only, to keep and bear
arms of every description, and not such merely as are
used by the militia, shall not be infringed, curtailed, or
broken in upon, in the smallest degree; and all this for the
important end to be attained ... so vitally necessary to
the security of a free State. Our opinion is, that any law,
State or Federal, is repugnant to the Constitution, and
void, which contravenes this right, .... "Ibid.
Id. 128 S. Ct. @ 2809. [ Emphasis in Italics added and in the Original.] Therefore,
since the history, text, purpose and command of the Second Amendment do not
support a legislative prohibition of the right upon any of the people, then at what

23

point did the Heller court, without conducting an exhaustive full scope analysis of
the Second Amendment, garner that “nothing in our opinion should be taken to cast
doubt on longstanding prohibitions on the possession of firearms....” Id. 128 S.Ct. @
2817. Prohibiting the right of any of the People to possess firearms was never
mentioned, let alone alluded to, within Heller’s historical framework.
In Kanter, v Barr, Judge Barrett, in her dissent, after conducting an historical
analysis of the Amendment, explained that this Court interpreted the word "people"
as referring to "all Americans,” that "the people" "refers to a class of persons who are
part of a national community or who have otherwise developed sufficient connection
with this country to be considered part of that community.” She further clarified that
u[n]either felons nor the mentally ill are categorically excluded from our national
community. That does not mean that the government cannot prevent them from
possessing guns. Instead, it means that the question is whether the government has
the power to disable the exercise of a right that they otherwise possess, rather than
whether they possess the right at all.” Id. 919 F.3d @ 453 [Emphasis added].
In answer to Judge Barrett’s question: (1) the Second Amendment does not
allow government to disable the right, as the right “shall not be infringed.” U.S.
Const. Amend.IL; and (2) the government can prevent criminals from possessing
guns, but only for the limited duration of their confinement or restraint of liberty, or
where they clearly demonstrate a continued threat and immediate danger to society.
As stated by this Court in Wolff v. McDonnell: “Lawful imprisonment necessarily
makes unavailable many rights and privileges of the ordinary citizen, a ‘retraction
justified by the considerations underlying our penal system’ (Citation omitted) But
though his rights may be diminished by the needs and exigencies of the institutional

24

environment, a [person] is not wholly stripped of constitutional protections” when
they are convicted of crime. Id. 418 U.S. 539, 556 (1974). [Emphasis added].
Consequently, constitutional protections cannot be prohibited, and may only be
postponed for a limited duration. E.g. McDonald, Supra 130 S.Ct. @ 3077-3085
(Cone. Opn. by THOMAS, J.) Also, the Framers when drafting the Amendment, were
presented with alternative proposals, some of which provided for disqualification of
criminals. However “...none of the relevant limiting language made its way into the
Second Amendment.” Kanter, supra, 919 F.3d @ 454-456 [dissnt. Opn. by BARRETT,
J]. The fact that an instrument drawn with such meticulous care “does not contain
any such limiting phrase ... is persuasive evidence that no qualification was
intended.” See Reid. Supra, 354 U.S. @ n. 7; also Russello v. United States, 464 U.S.
16, 23-24 (1983)[Where limiting language was not included in enactment it is
presumed that the limitation was not intended]; and cf. United State v. Johnson, 529
. U.S. 53, 58 (2000) [When Congress provides exceptions in a statute, it does not follow
that courts have authority to create others. The proper inference is that Congress
considered the issue of exceptions and, in the end, limited the statute to what is set
forth]. Nor, is there a ‘“canon of donut holes,’ in which Congress’ failure to speak
directly to a specific case that falls within a more general statutory rule creates a
tacit exception. Instead, when Congress chooses not to include any exceptions to a
broad rule, courts apply the broad rule.” Bostock, Supra,, 140 S.Ct. @1747. Thus,
criminals/felons are not barred from Second Amendment protections.
Basically, the Second Amendment’s text, that the “right of the People to keep
and bear arms, shall not be infringed,” is clear-cut and unmistakable. Therefore, the
maxim: “A verbis legis non est recedendum" must apply. ‘From the words of the law

25

there is not any departure.” 5 Coke 118. Ours is a society of written laws. “Judges
are not free to overlook plain [constitutional] commands on the strength of nothing
more than suppositions about intentions or guesswork about expectations. ”Bostock,
Supra, 140 S.Ct. @ 1754. As such, the Second Amendment’s general command that
the right of the People shall not be infringed, cannot be donut holed to create an
exception, where none exist, allowing government to abolish or prohibit the right to
anyone they deem unpleasant. Id. 140 S.Ct. @ 1747
Permanent Prohibitions of Constitutional Rights And
Protections Do Not Find Support In Any Other Constitutional
Amendment.

3.

“The best historical support for a legislative power to permanently
dispossess all felons would be founding-era laws explicitly imposing—or explicitly
authorizing the legislature to impose—such a ban. But at least thus far, scholars
have not been able to identify any such laws.” Kanter, supra, 919 F.3d @ 654
[dissenting opn. by BARRETT, J].[Emphasis added]. History is consistent with
common sense: it demonstrates that legislatures have the power to prohibit
dangerous people from possessing guns “But that power extends only to people who
are dangerous. Founding-era legislatures did not strip felons of the right to bear
arms simply because of their status as felons.” Id. 919 F.3d @ 451. [Emphasis added].
Therefore, where does a long-standing prohibition of constitutional rights and
protections stem from? Obviously not from the Constitution.
The First Amendment. The First Amendment states that “Congress shall
make no law abridging” the rights enumerated therein. When a person is convicted
of a felony, they are not permanently stripped of all First Amendment rights and
protections.

In Wolff v. McDonnell, this Court stated those protections are not

26

wholly stripped, but diminished due to the imprisonment imposed upon them by
their conviction. Id. 418 U.S. @ 556. And, a person who is convicted because their
speech or advocacy “is directed to inciting or producing imminent lawless action and
is likely to incite or produce such action,” e.g. Brandenburg v. Ohio, 395 U.S. 444.
447-448 (1969) (Per Curiam), still retains their right to free speech and advocacy
after their release from imprisonment. And, yet speech and advocacy, as well as
religion, can produce the most dangerous forms of violence known, as well as incite
millions of people to commit atrocities, and bring nations to war. See
https://nationalinterest.org/blog/reboot/terrifying-how-adolf-hitlers-speechescaptivated-millions-germans-169813; also see http://eskify.com/10-devastating-holywars/. As such, had Adolph Hitler been an American citizen, he would still retain his
First Amendment rights, had he been convicted for the crimes he committed.
The Fourth Amendment. The Fourth Amendment basically protects the
individual from unreasonable and arbitrary searches and seizers by the government.
Though prisoner’s and parolees in limited circumstances retain this right, their
conviction also does not permanently extinguish it. E.g. Griffin v. Wisconsin, 483
U.S. 868, 873-874 (1987); Morrissey v. Brewer, 408 U.S. 471, 480-482 (1972) [The
liberty of a parolee enables him to do a wide range of things open to persons who
have never been convicted of any crime. The parolee has been released from prison
based on an evaluation that he shows reasonable promise of being able to return to
society and function as a responsible, self-reliant person]. Therefore, the text and
history of the Fourth Amendment does not allow government to permanently divest
a previously convicted person of its protections after they are set free.

27

Basically, no other Amendment in the Constitution allows government to
eternally prohibit,

restrict,

or

disable

any person from the

fundamental

constitutional rights or protections afforded.14 As such, the Second Amendment, via
impermissible government regulation, has been relegated to a “second-class right,
subject to an entirely different body of rules than the other Bill of Rights
guarantees.” Cf. McDonald, Supra, 130 S Ct. @ 3044. But it is also clear that there is
no constitutional authority supporting a permanent life-time ban on fundamental
rights due to the status of being labeled a felon or due to an outdated conviction. “No
clause in the constitution could by any rule of construction be conceived to give to
congress a power to disarm the people....” E.g. Heller, Supra, 128 S.Ct. @ 2806 also
see Ex Parte Milligan, 71 U.S. 2, 120-121 (1866).15 Therefore, any law would be

The only Amendment which would remotely allow for any type of restriction on
fundamental rights, might be the Thirteenth Amendment. However, this Amendment
supports Petitioner’s claims more than it defeats them. This Amendment only concerns
“slavery or “involuntary servitude” as being acceptable for punishment of crime. Thus,
involuntary servitude would mean imprisonment. Yet, its power stops when the individual
is freed from that servitude. Cf. McDonald, Supra, 130 S.Ct. @ 3040-43.
14

Milligan’s opinion is relevant today. That Court clearly resounded the true intent of
the Bill of Rights, and declared that the “securities for personal liberty thus embodied... were
such as wisdom and experience had demonstrated to be necessary for the protection” of the
People, including those accused of crime. “And so strong was the sense of the country of their
importance, and so jealous were the people that these rights, highly prized, might be denied
them by implication, that when the original Constitution was proposed for adoption, it
encountered severe opposition; and, but for the belief that it would be so amended as to
embrace them, it would never have been ratified.” Id. @ 71 U.S. @ 120. In other words, if it
were not for the Amendments to the Constitution, the Constitution would not have been
approved. However, “[t]ime has proven the discernment of our ancestors; for even these
provisions, expressed in such plain English words, that it would seem the ingenuity of man
could not evade them, are now .. .sought to be avoided. Those great and good men foresaw . .
. that the principles of constitutional liberty would be in peril, unless established by
irrepealable law. The history of the world had taught them that what was done in the past
might be attempted in the future. The Constitution of the United States is a law for rulers
and people, equally . . .and covers with the shield of its protection all classes of men, at all
times, and under all circumstances.” Id. @ 121. [Emphasis added].
15

28

unconstitutional that made it impossible for citizens to use firearms for "the core
lawful purpose of self-defense" and any law which permanently disqualifies any
citizen from possessing firearms—"would impermissibly conflict with the 'core* selfdefense right embodied in the Second Amendment.” E.g. Ranter, supra, 919 F.3d @
465 [dissent by BARRETT, J]. California Penal Code section 29800 and 18 U.S.C.
§922 make it impossible for Petitioner to use firearms for self-defense, because they
impermissibly disqualify him from the Second Amendment’s central component of
armed self-defense. Basically, those laws amount to a destruction of his Second
Amendment rights. “If a regulation amounts to a destruction of the Second
Amendment right, it is unconstitutional under any level of scrutiny.” See Miller v.
Bonta, supra @ pp. 17-18 & 21-22; Young v. State, 992 F.3d 765, 784 (9th Cir. 2021)
(en banc); and Ex Parte Milligan, supra, 71 U.S. @ 125-126 [For this, and other
equally weighty reasons, the Founders “secured the inheritance they had fought to
maintain, by incorporating in a written constitution the safeguards which time had
proved were essential to its preservation. Not one of these safeguards can the
President, or Congress, or the Judiciary disturb, except the one concerning the writ
of habeas corpus. . . . Q Knowing this, they limited the suspension to one great right,
and left the rest to remain forever inviolable”].[Emphasis added].
II.

This Court Should Resolve The Question Of Whether, Under Article VI,
Clause 2, Of The United States Constitution, The Second Amendment
To The Constitution Is Supreme Law And, Whether Any Law
Contravening The Right Of Any Free Law-Abiding, Responsible Citizen
To Keep And Bear Arms For Self-Defense Is Repugnant To The
Constitution, And Void
Part I above plausibly sets forth that government cannot infringe upon the right

of any of the People to keep and bear arms. The plain, unambiguous meaning of

29

“shall not be infringed” clearly places a limitation on government conduct and not on
that of the People, regardless of previous conditions of servitude or conviction.
It has been established that the Second Amendment, like the First and Fourth
Amendments, “codified a pre-existing right.” Heller, Supra, 128 S.Ct. @ 2797-98. This
Court found that the “very text of the Second Amendment implicitly recognizes the
pre-existence of the right and declares ... that it ‘shall not be infringed.5" Ibid. This
pre-existing right basically “guarantees” to the individual that they have an uninfringeable power to “possess and carry arms in case of confrontation.” Ibid. Heller
further mentioned that the Second Amendment right is “not a right granted by the
Constitution. Neither is it in any manner dependent upon that instrument for its
existence....” Ibid. And, in United States v. Cruikshank, Supra, this Court
acknowledged that “the second amendment declares that [the right] shall not be
infringed. . . [t]his is one of the amendments that has no other effect than to restrict
the powers of the . . . government...” Id. 92 U.S. @ 553. [Emphasis added in Italics].16
Since the pre-existing power to keep and bear arms for self-defense is not
reliant upon the Constitution for its existence, and being that government is a
creature solely derived from the Constitution and has no power to act outside its
limitations, then the right protected is not dependent upon government for its
authorization. See U.S. Const. 2nd Amend; e.g. Reid v. Covert, Supra, 354 U.S. @ 5-6.

In fact, Under Article VI, cl. 2, the police powers of government are limited by the
Constitution and therefore, those powers cannot contravene the People’s police powers under
the Second Amendment to secure a free State, or to “protect” themselves, family, home, and
community, “from vicious fellow citizens and corrupt authorities-both the banes of any
republican society. . . to accomplish this the responsible citizen must be armed.” E.g.
Shalhope, Ideological Origins of the Second Amendment, supra, @ 603. This power may also
be retained by the people under the 9th and 10th Amendments.
16

30

It is unambiguously clear that any type of government control is effectively
prohibited by the Second Amendment. Specifically, the right cannot be, may not be,
and shall not be infringed.
Accordingly...
“The principles, therefore, so established, are deemed
fundamental. And as the authority from which they
proceed is supreme, and can seldom act, they are designed
to be permanent. Q . . . The powers of the legislature are
defined and limited; and that those limits may not be
mistaken, or forgotten, the constitution is written. To
what purpose are powers limited, and to what purpose is
that limitation committed to writing, if these limits may,
at any time, be passed by those intended to be restrained?
Q It is a proposition too plain to be contested, that the
constitution controls any legislative act repugnant to it....
‘If, then, the courts are to regard the constitution, and the
constitution is superior to any ordinary act of the
legislature, the constitution, and not such ordinary act,
must govern the case to which they both apply.”
Marbury, Supra, 5 U.S. @ 176-178. [Emphasis added in Italics]. Basically, this “pre­
existing” right is placed “beyond the reach of majorities and officials” and shall not
be the subject of their vicissitudes, controversies, votes, or elections. E.g. West
Virginia Bd. Of Ed, Supra, 319 U.S. @ 638. Consequently, any laws overstepping
this supreme constitutional limitation are impermissible, and void under Article VI,
cl. 2, of the United States Constitution.
A.

The Government’s Interest In Protecting Society Cannot Be
Elevated Above The Individual’s Second Amendment Interest In
Armed Self-Defense

Heller, further recognizes that the Second Amendment like the First, “is the
very product of an interest balancing by the people. . . [a]nd whatever else it leaves
to future evaluation, it surely elevates above all other interests the right of lawabiding, responsible citizens to use arms in defense of hearth and home.” 128 S.Ct.

31

2821. [Emphasis added]. Likewise, the Second Amendment rights of free citizens are
also elevated above all other interests, including government interests; as all free
citizens are on an equal playing field as that of law-abiding, responsible citizens?17
This concept is supported by Heller’s and McDonald’s historical analysis. Id. 128 S.
Ct. @ 2805-2813. “The right to bear arms has always been the distinctive privilege of
freemen.” Id. @ 2812; also see McDonald, Supra, 130 S.Ct. @ 3040-3043, & 3075-3084
(Cone. Opn by THOMAS J.)
A Free Person. A person (1) having the legal and political rights of a citizen (2)
enjoying civil and political liberty free citizens (3) enjoying political independence (4)
enjoying personal freedom: and (5) not bound, confined, or detained by force (i.e. The
prisoner is now free.) See https://www.merriam-webster.com/dictionary/free.
The indisputable facts herein, conceivably demonstrate that Petitioner is a
“free citizen.” He is no longer bound, confined or detained (imprisoned or restrained).
He has regained his legal and political rights and political independence via voting
and jury duty. He is a tax-payer. He has access to public and political institutions,
works for state government, and enjoys personal freedom. As a public employee he is
required to swear an oath to support and defend both the United States and
California Constitutions. He has been clean and sober for 31 years. He also has
abided by and been obedient to the law for the past 31 years. See Statement of the

This concept produces another question. Would a citizen in order to be law-abiding
and responsible have to be “free”? Not necessarily. A prisoner, parolee, or probationer who
is restrained of liberty but abiding by and obedient to the rules and laws set down by the
system confining them is not Free, but nonetheless, by definition, law-abiding and
responsible. See Footnote 1, Ante. However, a person, in order to retain or regain that
Freedom, must abide by the rules and laws set forth and be responsible in their daily
affairs. Therefore, the rights and interests of the individual who is “free” must be equal to
those who are merely law-abiding and responsible.
17

32

Case, supra, @ Part A, pp. 6-9. Therefore, Petitioner also falls within the parameters
of a law-abiding, responsible citizen. See Footnote 1 ante. Accordingly, under the
basis of Heller, his right to keep and bear firearms for self-defense is “elevated
above” all other interests. Id. 128 S.Ct. @ 2821. Therefore, absent clear and
unequivocal evidence that Petitioner will pose a grave and immediate danger to the
public, if armed, the government cannot in perpetuity, continue to terminate his
Second Amendment rights (i.e. the right, shall not be infringed.). As such, “[r]ights
guaranteed by the federal Constitution are not to be so lightly treated; they are
superior to [any] supposed necessity.” E.g. Schlesinger v. Wisconsin, 270 U.S. 230,
240 (1926). Accordingly, any presumptive prohibition of Petitioner’s rights, as
applied, are impermissible. See ante, Part I-A. @ pp. 14-15
1.

Grave and Immediate Danger, or Imminent Lawlessness

Heller determined that the Second and First Amendments are alike.
Specifically, they both confer an individual right, which is not unlimited, in that one
does not protect the right of citizens to carry arms for any sort of confrontation; while
the other does not to protect the right of citizens to speak for any purpose. Id. 128
S.Ct. @ 2799. Yet, those restrictions are only subject to time, place, and manner
limitations, not eternal prohibitions. Therefore, Second Amendment standards,
much like First Amendment standards, “must give the benefit of any doubt to
protecting rather than stifling speech [and the right to keep and bear arms]”. Cf.
Citizens United v Federal Elect. Comm. 130 S.Ct. 876, 891 (2010); and Cruikshank,
supra, 92 U.S. @ 549 [government’s purpose is to protect the rights of the People].
Although government may have a legitimate interest, or even rational basis, for
adopting regulations postponing the rights to free speech, and assembly, or even the

33

right to keep and bear arms, that interest under Heller, 128 S, Ct. 2821, cannot be
elevated above the right of a free law-abiding responsible citizen to use arms in
defense of hearth and home. Those rights “may not be infringed on such slender
grounds. They are susceptible of restriction only to prevent grave and immediate
danger to interests which the State may lawfully protect.” E.g. West Virginia Bd. Of
Ed., Supra, 319 U.S. @ 639. [Emphasis added in Italics.]18 The grave and immediate
danger standard however demonstrates that legislatures have the temporary power
to postpone but not to permanently strip the right to possess and carry guns. “But
that power extends only to people who are,” in fact, a grave and immediate danger, cf
Kanter, supra, 919 F.3d @ 451 [BARRETT, J. dissenting], or who continuously
embark upon “imminent lawless action” and are likely to produce such action. E.g.
Brandenburg, Supra, 395 U.S. @ 448.
Basically, California Penal Code §29800, as well as 18 U.S.C. §922, and any
state or federal law of similar restrictions, are unconstitutional under the Second
Amendment because they lump anyone convicted of a felony or misdemeanor into
one category but do not distinguish between those People who are currently under a
conviction and those People who are free—no longer under a conviction—thereby
making the conviction obsolete. Nor, do they distinguish between those People who
because of their conviction pose a serious and direct danger, and those People who
because of their prior conviction no longer pose any significant danger. Neither do

Here the only interest the government may lawfully protect is that of the People to
keep and bear arms. Cf. West Virginia Bd. Of Ed., Supra, 319 U.S. @ 637-639. Since the
Second Amendment provides an explicit textual source of constitutional protection against
this sort of intrusive governmental conduct, that Amendment and not notions of due process
“must be the guide for analyzing these claims.” Graham v. Connor, 490 U.S. 386, 395 (1989).
18

34

they distinguish between those People who because of their conviction continue in
imminent lawlessness, and those People who rehabilitated from their previous
conviction, are law-abiding and responsible. Instead, if left unchecked and not
narrowed to the smallest limits possible, these laws will potentially be used to
restrict any American under any government contrived pretext, or pretense
whatsoever. “A statute which fails to draw this distinction impermissibly intrudes
upon the freedoms guaranteed by the First [, Second,] and Fourteenth Amendments.
It sweeps within its condemnation [conduct] which our Constitution has immunized
from governmental control.” Brandendburg, Supra, 395 U.S. @ 448. In other words,
"the government does not get a free pass simply because [it] has established a
'categorical ban."' The government could quickly swallow the right if it had broad
power to designate any group as dangerous and thereby disqualify its members from
having a gun. Kanter, supra, 919 F.3d @ 465 [dissent by BARRETT, J.] [Emphasis
added.].
Judge Barrett’s forecast is not too far off the mark. The years 2020-2021,
brought us Covid-19, where the People were subjected to tyrannical practices such as
arbitrary government mandated lockdowns and facial covering mandates; the
arbitrary closure of businesses, schools, and churches; six-foot distancing
requirements; inequality riots; protests; an allegedly stolen Presidential election; the
indoctrination of unproven vaccines; Critical Race Theory; the Hi-Tec Media
censorship of selected political and advocacy platforms; and radical Defund the
Police policies. All geared towards a socialist-Marxist agenda of majority control over
the minority in order to destroy individual rights and freedoms protected by the

35

Constitution.19 Therefore, the loss of Second Amendment rights, much like the loss
of First Amendment freedoms, “for even minimal periods of time, unquestionably
constitutes irreparable injury.” Cf. Elod v. Burns, 427 U.S. 347. 373-74 (1976). Every
minute that Petitioner is free, and leading a law-abiding responsible life, he is
suffering an irreparable injury to his natural fundamental right of armed selfdefense, due to a prior restraint imposed upon him, which he has been discharged
from; based on a prior conviction, which has become obsolete; assumed from
antiquated action, which no longer exists. Thus, much like the First Amendment,
“[a]ny system of prior restraints of [the Second Amendment right to armed selfdefense] comes to this Court bearing a heavy presumption against its constitutional
validity." New York Times v. United States, 403 U.S. 713, 714 (1971)(Per Curiam).20
Research illustrates that an ex-offender is most likely to become an active,
lawful participant in the community “if they are given the same rights and
opportunities as other community members upon release.” See e.g. Debra Bone, The
Heller Promise versus The Heller Reality: Will Statutes Prohibiting The Possession of

Under this “new normal” what is to prevent the government from adopting the
“Critical Race Theory” while defunding the police, and then outlawing all White, Asian,
Hispanic or even certain Black males or females from their Second Amendment rights to
self-defense because they are arbitrarily assumed by some baseless criteria as dangerous?
Or prohibiting those who refuse to wear facial coverings, get the vaccines, speak out against
the mandates, who peacefully protest, or re-open their business to feed their family in
violation of “covid” or some other contrived government mandates?
19

Petitioner’s pre-existing, Second Amendment right does not magically disappear
upon conviction. Instead, like his First Amendment rights, it is diminished but not wholly
stripped during his incarceration. See ante, Part I-A-2, @ pp. 23-25. However, after he is set
free government then bears the heavy burden of proving the necessity of continuing its
diminished effect. Miller v. Bonta, Supra, @ pp. 25-27. The same applies for any type of
government imposed “covid” mandates or restrictions on fundamental rights or liberty
interests. The government must prove how that individual is a grave and immediate danger.
20

36

Firearms by Ex-felons be Upheld After Britt v. State?, 100 J. Crim. L & Criminology
1633, 1653-54 & nn. 136 & 137 (2010).[Hereafter “Bone".]
While there are obvious emotional and political reasons to prohibit firearm
possession by convicted felons, any limitations on rights after the completion of their
sentence “should be carefully evaluated.” E.g. Bone, supra, 100 J. Crim. L &
Criminology @ 1654. Certainly, the initial impulse would be to believe that convicted
felons are more dangerous than ordinary citizens, regardless of the nonviolent
nature of their first conviction; and it is entirely reasonable for the legislature,
concerned for the safety of the public it represents, to want to keep firearms out of
the hands of such a person. Yet, despite Heller’s promises to the contrary, “the
Supreme Court’s determination that the right to bear arms is an individual right
and its disapproval of the interest-balancing test for firearm regulations... beg the
question of whether the state’s interest in a slightly safer public is strong enough to
trump the individual’s right to bear arms.” Ibid. Certainly, in situations like
Petitioner’s where there is no evidence of dangerousness and thus no obvious benefit
to the state, it will be difficult for the government to show that the law, as applied,
furthers any sort of legitimate state interest.
This is particularly true given Heller’s “focus on the historical tie between the
right to bear arms and the right to self-defense. If this historical analysis is taken as
true, why would an ex-felon have less of a right to self-defense than a person with no
felony convictions? Taken one step further, does a person who lives in a home with
an ex-felon have less of a right to self-defense than does a person who does not live
with an ex-felon?” Since Heller has determined that the language of the Second
Amendment guarantees an individual right to use firearms for self-defense, firearm

37

regulations will need to be reformed to respect the rights of ex-offenders, especially in
cases where there is no evidence that the ex-offender is particularly dangerous.”
Ibid.21 Consequently, the government’s burden to justify any restraint on Petitioner’s
Second Amendment rights must be substantially clear and unequivocally convincing.
In other words, the conviction has become obsolete, it is outdated and can no longer
be sufficient to overcome the Second Amendment’s requirement of a pre-existing
individual right to keep and bear arms, especially where the interest at stake is the
person’s, natural, fundamental right to self-defense. McDonald, Supra, 130 S.Ct. @
3036-3038. This interest is deemed more substantial than speech. It’s the first law of
human survival. Ante @ p. 1. The interest is a matter of protecting and securing life,
and liberty. It concerns individual safety and happiness by means of self-defense.
Any destruction of the right to self-defense is per se unconstitutional. Young, supra,
992 F.3d @ 784; also see Miller v. Bonta, supra @ pp. 17-22, & 25-26.22
In sum, the text of the Second Amendment makes clear that it (1) “enshrines a
right’ and not a mere privilege or suggestion subject to legislative revision or

Also see e.g. 4 WILLIAM BLACKSTONE, COMMENTARIES, Ch.l, Public Wrongs,
Crime and Punishment **12-16 (1825) [Where the offender is amendable to correction,
society will not benefit from perpetual punishment or retaliation]. A perpetual prohibition
on the natural right to armed self-defense is retaliation in both form and substance. It acts
as an additional sentence-punishment via a prior conviction. Petitioner was “discharged”
from his punishment however. Ante pp. 6-7. Accordingly, any form of penalty in excess of
what he has already served may violate the 8th Amendment. Cf. Roper v. Simmons, 543 U.S.
551, 560-561(2005).
21

The topic of individual safety and self-defense is outside the purview of any
legislative established prohibition. The Second Amendment “reflects a judgment by the
American people that the benefits of its restrictions on the Government outweigh the costs.
Our Constitution forecloses any attempt to revise that judgment simply on the basis that
some [People may not be] worth it. The Constitution is not a document ‘prescribing limits,
and declaring that those limits may be passed at pleasure.’” Cf. U.S. v. Stevens, 130 S.Ct.
1577, 1585 (2010), citing Marbury, Supra, 5 U.S. @ 178. [Emphasis and Bracketed text
added].
22

38

retraction”; (2) this right “belongs to ‘the people’ generally, not merely a select few”;
and (3) by making the right to keep and bear arms, the “Framers made the policy
choice to relieve ‘the people’ of any obligation to justify their exercise of that right.”
See Appendix D, pp. 4-5—Amicus Curiae Brief of United States Senator Ted Cruz and 24
Other U.S. Senators: Filed in U.S. Supreme Court, Case No.: 20-843 (July 20, 2021).
Moreover, the right to keep and bear arms belongs to all people, who
“undifferentiated,” are free and law-abiding. Id @ p 13. In addition, those people who
“might” fall beyond the general policy balance of the Constitution (i.e. dangerous
criminals), would have to be distinguished from the People. See Appendix D, pp. 2-3
& 13-14. Thus, since normal people can become dangerous and commit crimes, and
criminals can become normal people, then any temporary ban on the right to keep
and bear arms might be tolerable where, like a “dangerous and unusual weapon,”
the dangerous criminal characteristics of the individual extend well “beyond those
intrinsic to common” criminal wrongdoing. Predominantly, the demonstrated
criminal nature of the person must be so “unusual and dangerous” that not only does
their criminal history demonstrate continuous, immediate and grave danger, but
also displays an extremely brutal and unusual demeanor to both victims and society.
Appendix D, pp. 13-14 & n. 6; and cf. 4 BLACKSTONE COMMENTARIES, supra, @
9-11 & 15. In short, any constraint on the right to keep and bear arms should not be
based on whether the person was convicted of a crime, nor on the elements of the
offense, but solely upon the dangerous and unusual criminal characteristics and
nature of the person, and whether or not they are amendable to rehabilitation. Id. 4
BLACKSTONE, supra., @ 10-13; also see Ante Part II-A-1, @ pp. 30-37.

39

III.

The Questions Presented Are Exceptionally Important
For most of our history the above questions did not present themselves and,

yet, there is not any Second Amendment issue more compelling and pressing than
whether the government can, in any way, shape, or manner, invade upon or prohibit
the fundamental constitutionally protected right of a free human-being to keep and
bear arms for their personal self-defense.23 These issues are more convincing where
the purpose and command of the Amendment is clear and unambiguous in declaring
that this fundamental, natural right “shall not be infringed.” What makes matters
worse, is that the lower courts refuse to meaningfully engage in the textual and
historical analysis required. Instead, they summarily dismiss, evade, or utilize an
impermissible interest balancing approach to purposely overlook the vitally
important constitutional questions on how far can government overreach in order to
invade upon the protections of a constitutionally secured right that shall not be

If the Second Amendment right to self-defense does not protect Petitioner, “then the
safety of all Americans is left to the mercy of [government] authorities who may be more
concerned about disarming the people than about keeping them safe.” See Gaetano v.
Massachusetts 136 S.Ct. 1027, 1033 (2016)[Conc. Opn by ALITO & THOMAS, JJ.](Per
Curiam): Ante pp. 5-6 & footnote 4. Moreover, if “firearms cannot be categorically prohibited
just because they are dangerous,” Gaetano, 136 S.Ct. @ 1031, then the People definitely
cannot be categorically prohibited because they may be assumed dangerous. See Ante @
Footnotes 7 & 9. After all, the Second Amendment protects the “right of the People,” not the
right of the firearm. The type of firearm or arms are only protected when the People exercise
the right to procure, keep and bear them for security reasons. Otherwise, a firearm is just
another tool, like an axe, knife, box cutter, stun-gun, hammer, sword, or “any thing that a
man wears for his defense, or takes into his hands, or useth in wrath to cast at or strike
another.'" Id. 136 S.Ct. @ 1031. Accordingly, any government regulation prohibiting any
type of arms to anyone previously convicted of crime, who are free and law-abiding, does not
serve any rational, legitimate or compelling government interest. Where the government
does prohibit that individual, then the government must make sure that person is safe and
be willing and able to protect them. Otherwise, if government is unwilling or unable to do so,
then those People must have the ability to defend themselves by any means necessary,
without suffering criminal penalties. Cf. Gaetano, 136 S.Ct. @ 1033; also see Ante @ p. 1.
23

40

encroached upon. The Constitution is written, it cannot be changed except by proper
amendment, and not by any judicial, legislative or executive fiat. See Appendix D,
pp. 4-13. Accordingly, the Second Amendment is supreme law. Therefore, all laws
are to be made to support its purpose and command. See Ante @ n. 8.
The Court should grant certiorari to resolve these fundamental constitutional
questions of national importance, and restore the Second Amendment to its original
role in securing the freedom our constitutional republic, by declaring that any law
prohibiting any free responsible, law-abiding American citizen, regardless of a past
transgression, from the right to keep and bear any type of arms necessary to defend
individual and national security, shall not be permissible.
CONCLUSION
The petition for a writ of certiorari should be granted. Petitioner has established
plausible and meritoriously arguable claims for relief. Consequently, the lower
courts summary dismissal of this case was in error. Accordingly, those decisions
should be reversed and this case remanded back to the district court.
Dated: August 20, 2021.
Respectfully Submitted.

By.
S'fEt'lifN E. WALKER, Petitioner in Pro se

